United States Department of Agriculture
Office of Inspector General




Recovery Act Performance Measures for
the Supplemental Nutrition Assistance
Program




                                          Audit Report 27703-0002-22
                                          March 2013
                                        Recovery Act Performance Measures for the
                                        Supplemental Nutrition Assistance Program

                                                  Audit Report 27703-0002-22

What Were OIG’s
Objectives
OIG initiated this audit to
review SNAP Recovery Act-
specific performance measures
to determine whether they       OIG initiated this audit to determine whether
effectively measure how FNS
used those funds to achieve     FNS’ performance measures effectively
Recovery Act goals.             measured its achievement in accomplishing
What OIG Reviewed
                                the SNAP Recovery Act goals.
Our review covered SNAP
performance during the period   What OIG Found
of Recovery Act funding, from
inception in April 2009         FNS, with Department of Agriculture (USDA) and Office of
through December 2012.          Management and Budget (OMB) approval, implemented four
Specifically, we focused on     performance measures to evaluate its implementation of the Recovery
the development,                Act for SNAP. However, we found these measures were not designed
implementation, and             to effectively evaluate how the additional funding achieved the
measurement of key              Recovery Act goals of assisting those most impacted by the recession,
performance indicators put      stabilizing State government nutrition program budgets for essential
forth by FNS. Our fieldwork     services, and stimulating the economy. Two of the four measures also
took place from May through     appear in the Department’s Strategic Plan for FYs 2010 through 2015,
December 2012.                  which will remain in effect after Recovery Act funding ends. FNS
                                officials explained that they selected the four performance measures
What OIG Recommends             because OMB urged agencies to use measures they were already
                                using for regular operations. FNS believed the Recovery Act goals
We recommended that FNS         naturally aligned with its pre-existing program goals for SNAP.
establish outcome-based         However, according to OMB, it is ultimately FNS’ responsibility to
performance measures for        develop and report on performance measures that provide
SNAP in the USDA Strategic      transparency to enable the American public to see the results of their
Plan. FNS cannot define         investment from Recovery Act funding.
outcome measures specific to
SNAP, because of the            Specifically, we found three of the four measures did not measure
complexity of measuring         outcomes that assessed how well the additional funds achieved the
program impacts on              Recovery Act goals. Instead, three of these performance measures
participants. We accept         reflected outputs, such as the dollar amount of benefits issued and
management decision.            administrative costs expended. The one outcome performance
                                measure, which deals with food insecurity, did not directly measure
                                the impact of Recovery Act funds because it did not measure how
                                well SNAP assisted those most impacted by the recession. As a
                                result, FNS had not assessed or reported on the use of the
                                approximately $45.5 billion in additional SNAP funds to show the
                                American taxpayer, in terms of the established goals, what was
                                received for the Recovery Act investments.
                           United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250




DATE:          March 28, 2013

AUDIT
NUMBER:        27703-0002-22

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Director
               Office of Internal Controls, Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Recovery Act Performance Measures for the Supplemental Nutrition
               Assistance Program


This reports presents the results of the subject audit. Your written response to the official draft
report, dated March 22, 2013, is attached, with excerpts from your response and the Office of
Inspector General’s position incorportated in the relevant Finding and Recommendation sections
of the report. Based on the agency’s response to our official draft report, we accept management
decision for the recommendation in the report. No further response to this office is necessary.

Please follow your internal agency procedures for providing final action correspondence for
these recommendations. In accordance with Departmental Regulation 1720-1, final action on the
management decisions should be completed within 1 year of the date of the management
decisions to preclude being listed in the Department’s annual Agency Financial Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Background and Objectives ....................................................................................1
Section 1: Performance Measures .........................................................................3
   Finding 1: FNS’ SNAP Performance Measures Did Not Effectively
   Evaluate Achievement of Recovery Act Goals ..................................................3
         Recommendation 1 ........................................................................................5
Scope and Methodology ...........................................................................................6
Abbreviations ...........................................................................................................7
Agency’s Response ...................................................................................................9
Background and Objectives

Background
The Department of Agriculture's (USDA) Food and Nutrition Service (FNS) administers the
Supplemental Nutrition Assistance Program (SNAP), formerly known as the Food Stamp
Program.1 SNAP is the largest of the 15 domestic food and nutrition programs within USDA.
The program provides monthly food assistance and nutrition for the health and wellbeing of
more than 47 million low-income individuals. The number of SNAP participants has grown by
77 percent since 2007, and the program disbursed over $74.6 billion in benefits in fiscal year
(FY) 2012.

Federal, State, and local governments share the administrative costs of SNAP. FNS administers
SNAP nationally, while State agencies administer SNAP through State and local offices. FNS
develops reporting and monitoring policies to oversee individual States' program operations.2
States determine whether households meet SNAP eligibility requirements, calculate monthly
benefits for qualified households, and issue benefits via electronic benefit transfer cards. The
monthly amount of a recipient's SNAP benefits is based on USDA’s Thrifty Food Plan, which
estimates the weekly cost of food needed to prepare nutritious, low-cost meals to meet the
dietary requirements for a household of four. The estimate is updated every year to keep pace
with changing food prices.

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided an estimated
$295 million for administrative expenses for FYs 2009 and 2010 and has provided an estimated
$45.2 billion3 for increased benefits between April 2009 and October 2013. The Recovery Act
increased SNAP benefits by 13.6 percent over June 2008 levels. The Recovery Act funding for
SNAP was intended to achieve the following objectives: (1) assisting those most impacted by
the recession; (2) creating and saving jobs;4 (3) stimulating the economy; and (4) stabilizing
State agencies' nutrition program budgets to better support SNAP administration. Congress, in
enacting the Recovery Act, emphasized the need for accountability and transparency in the
expenditure of funds.

Recovery Act funds provided three different enhancements for SNAP: (1) an across-the-board
increase in benefits, (2) suspended the 3-month time limit on eligibility for able bodied adults
without dependents, and (3) providing an additional $295 million to State agencies to help cover
their administrative expenses associated with this level of increased funding.5 Of the



1
  The Food Stamp Act of 1964 established distribution of food stamps as a permanent Federal program. The Food,
Conservation, and Energy Act of 2008 changed the Food Stamp Program name to SNAP, partly to help alleviate the
social stigma associated with food stamps.
2
  The program runs in 50 States, the District of Columbia, Guam, and the U.S. Virgin Islands.
3
  FNS estimated benefits to address a recommendation of OIG Audit 27703-0002-AT, Recovery Act Impacts on the
Supplemental Nutrition Assistance Program, June 1, 2012.
4
  SNAP was not required to report jobs created or saved.
5
  The Recovery Act provided $145 million in FY 2009 and $150 million in FY 2010.

                                                                     AUDIT REPORT 27703-0002-22             1
$295 million, $4.5 million was reserved for program management, oversight, and monitoring
expenses.6

On February 18, 2009, the Office of Management and Budget (OMB) began issuing guidance
requiring Federal agencies to establish rigorous internal controls, oversight mechanisms, and
other approaches to meet the accountability objectives of the Recovery Act. OMB guidance also
emphasized that benefits of Recovery Act funds are to be reported clearly, accurately, and in a
timely manner. For this purpose, OMB directed Federal agencies to establish a webpage
dedicated to the Recovery Act that links to the Governmentwide Recovery Act reporting website,
Recovery.gov.7 The agency should provide all agency information related to the Recovery Act
on its webpage and post this information on Recovery.gov.

In May 2009, FNS issued its initial Recovery Act plan, which documented specific performance
measures and target milestones to ensure the objectives of the Recovery Act were met.
According to its plan, FNS would monitor its performance measures by establishing a quality
control process to review eligibility determinations and benefit amounts, reporting financial and
program information monthly, and conducting management evaluations and program reviews.

The initial 2009 FNS Recovery Act plan included six performance measures: (1) estimated
economic stimulus, (2) increased benefits issued, (3) administrative funds expended, (4) funds
used to pay SNAP operations staff, (5) funds used for SNAP IT infrastructure, and (6) funds used
for other SNAP delivery support. The plan was updated on June 23, 2010, with significant
changes to the performance measures. The updated plan shows a deletion in performance
measures for economic stimulus, SNAP operations staff, IT infrastructure, and delivery support.
It adds the performance measures for households with very low food security and SNAP
participation rate. The final four performance measures are: (1) increased benefits issued,
(2) administrative funds expended, (3) households with very low food security among children,
and (4) SNAP participation rate.

Objective
The objective of our audit was to review the Recovery Act performance measures for SNAP to
determine whether they effectively measure how FNS used those funds to achieve Recovery Act
goals, including helping workers and families hardest hit by the economic crisis by providing
them with food assistance, stabilizing State government nutrition program budgets to minimize
and avoid reductions in essential services, and stimulating the economy since April 2009.




6
 FNS obligated $500,000 during FY 2009 and the remaining $4 million in FY 2010.
7
 Recovery.gov is administered by the Recovery Accountability and Transparency Board, an independent board
comprised of agency Inspectors General.

2     AUDIT REPORT 27703-0002-22
Section 1: Performance Measures

Finding 1: FNS’ SNAP Performance Measures Did Not Effectively Evaluate
Achievement of Recovery Act Goals
Although FNS developed four performance measures to evaluate its implementation of the
Recovery Act for SNAP, these measures did not evaluate how the additional funding achieved
the goals of assisting those most impacted by the recession, stabilizing State budgets for essential
services, and stimulating the economy. FNS officials explained that their reasons for selecting
the four performance measures they used were their belief that SNAP program goals already
aligned with Recovery Act goals, and OMB’s recommendation that FNS use performance
measures already being used for operations prior to the Recovery Act. FNS officials stated that
they used the four measures because they were approved by USDA and OMB, and two of the
same measures were found in the USDA Strategic Plan. However, three of the four measures
related to outputs, such as the dollar amount of benefits issued, instead of outcomes, and the only
outcome performance measure did not directly measure the impact of Recovery Act funds
because it did not measure the results of food nutrition programs such as SNAP. As a result,
FNS cannot demonstrate how the additional SNAP funds, an estimated $45.5 billion to
participants and States, were used to meet the goals of the Recovery Act.

In passing the Recovery Act legislation, Congress expected that a historic level of transparency,
oversight, and accountability would help guarantee that taxpayer dollars are spent wisely and the
public could see the results of their investment. To achieve an unprecedented level of
accountability and transparency, OMB required that each agency's plan for using Recovery Act
funds contain quantifiable outcomes consistent with the intent and requirements of Recovery Act
legislation.8 The requirement for Recovery Act performance measures closely followed the
performance measure requirement for ongoing programs found in the Government Performance
and Results Act (GPRA), which sought to improve Federal programs’ effectiveness by promoting a
focus on results. GPRA requires agencies to develop strategic plans identifying general goals and
objectives, including outcome-related goals and objectives for the major functions and operations of
the agency. It requires agencies to set annual performance goals to define the level of performance to
be achieved by a program, and report annually on actual performance compared to goals9 in the
Performance and Accountability Report10 to provide feedback to managers, policymakers, and the
public concerning what was actually accomplished with the resources expended.11

The intent of the Recovery Act, as it applied to SNAP, was to stimulate the economy, help those
most in need because of the economic downturn, and stabilize State budgets. As part of its
Recovery Act plan, FNS established four performance measures including (1) the amount of

8
  OMB M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009.
9
  Public Law 103-62, GPRA, enacted August 3, 1993.
10
   In the USDA Strategic Plan, FY 2010-2015, Performance Measure 4.1.1 is the number of households with very
low food security, and 4.1.2 is SNAP participation rate. The Performance and Accountability Report for FY 2011
discloses the results in a general discussion on household food security in the United States, and participation rate
data for SNAP are shown as the total number of participants, not as a percentage of those who are eligible.
11
   Senate Report 103-58, GPRA, Report of the Committee on Governmental Affairs.

                                                                            AUDIT REPORT 27703-0002-22                  3
additional benefits issued, (2) administrative funds expended, (3) SNAP participation rates, and
(4) the number of households with very low food security among children. The measures of
participation rates and households with very low food security are also included in USDA’s
Strategic Plan for its general programs and annual results are reported in the PAR. However, the
four measures did not provide an assessment of how well the additional funds achieved the
Recovery Act goals. Instead, three of these performance measures reflected outputs regarding
the amount of funds spent and the number of people served, and one measure—the number of
households with very low food security—did not directly measure the results of SNAP.

FNS officials informed us that OMB encouraged the agency to use the same performance
measures they previously used in their strategic plans because the Recovery Act did not change
FNS' mission and SNAP’s goals naturally aligned with those stated in the Recovery Act
legislation. Thus, FNS chose two output measures (additional benefits issued and administrative
funds expended) that only measured Recovery Act dollars expended, and two measures of
regular program goals, the output measure of SNAP participation rate, and the outcome measure
of households with very low food security. The marginal effect on the participation rate and
reductions in food insecure households, arising from the Recovery Act funding could not be
determined by FNS. Yet, OMB approved these pre-existing measures because they were
deemed useful in “tracking, at an agency-level, how Recovery Act funds were used by the
agency.”

Only one of FNS’ performance measures—the number of households with very low food
security among children—measures outcomes. The households measure was chosen because it
was already being used to measure outcomes in the USDA Strategic Plan. However, according
to a 2005 study by the National Research Council (NRC), the reduction in the number of
households with very low food security among children results from a combination of several
factors12—not solely from SNAP, and, as FNS officials told us, not solely from the impact of
Recovery Act SNAP supplemental funding. The study found that this measure is not effective in
measuring the results of food assistance programs.13 Specifically, the NRC report concluded that
the estimates do not measure anything directly tied to the food assistance programs (such as
improved nutritional status because of program participation) and effective performance of
programs, such as SNAP cannot be directly linked to improved food security status, nor can a
deterioration of food security be attributed to the failure of such programs.

The use of the outcome measure of households with very low food security was developed by the
Economic Research Service, and FNS has established goals for each year through 2015, when it
expects the number of insecure households to fall to virtually zero.14 By having a target and
capturing results in the real world, the households measure does qualify as an outcome measure.
However, as the NRC report noted, the real world results may or may not be caused by the
actions of FNS. Without knowing that FNS’ efforts resulted in any improvement in the number
of food insecure households, this measure cannot aid FNS in defining the level of performance

12
   Other factors cited by the study include changes in the economy, other programs or policies, and demographic
changes.
13
   National Research Council, Measuring Food Insecurity and Hunger: Phase I Report, 2005.
14
   The USDA Strategic plan states that, “In practice, a result of 80,000 or fewer households with very low food
security among children is indistinguishable from zero, given the precision of the survey sample.”

4     AUDIT REPORT 27703-0002-22
achieved by SNAP, whether Recovery Act or non-Recovery Act funds are being expended.
According to OMB, it is ultimately FNS’ responsibility to develop and report on performance
measures that provide transparency to ensure the American public fully understands the benefits
of the investments both from Recovery Act funding as well as from other appropriations. OMB
and the Department approved these measures. Given that Recovery Act funding will expire in
October 2013, we do not believe that it would be beneficial to modify the performance measures
specific to the Recovery Act. Alternatively, since the measures are also used for the ongoing
program, FNS should replace the household measure with outcome measures reflecting SNAP
results.

In conclusion, we determined that none of FNS’ four performance measures effectively
evaluated the achievement of SNAP Recovery Act goals, nor did the measures provide outcome-
oriented information for measuring ongoing program performance. FNS should revise the
performance measures for SNAP contained in the USDA Strategic Plan to better assess the
effectiveness of this important program.

Recommendation 1
Develop, within USDA’s Strategic Plan, outcome-based measures reflecting the performance of
SNAP.

Agency Response
In its March 22, 2013, response, FNS stated:

       USDA tracks the participation rate among people eligible for SNAP benefits, as well as the
       national prevalence of hunger and food insecurity, as two key performance measures. The
       former measure tracks the program’s effectiveness in reaching its target population, while the
       latter measure is a society-wide outcome to which SNAP participation contributes. …

       However, FNS has not defined outcome measures specific to SNAP because of the
       complexity of measuring program impacts on participants. Since households at greater risk
       of hunger are more likely to seek assistance, assessment of program effectiveness requires
       more complex analytical methods to account for differences between participants and
       nonparticipants. …

       USDA shares OIG’s interest in outcome-based performance measurement and would be
       pleased to consider any specific recommendations for measurement approaches that would be
       more specific to SNAP. In lieu of such recommendations, however, we would expect to
       continue to use the alternative analytical approaches available to us to assess SNAP’s
       effectiveness.

OIG Position
We accept management decision.



                                                               AUDIT REPORT 27703-0002-22           5
Scope and Methodology
Our review covered SNAP performance during the period of Recovery Act funding from
inception in April 2009 through December 2012. Specifically, we focused on the development,
implementation, and measurement of key performance indicators put forth by FNS. We
evaluated FNS’ development process for four Recovery Act performance measures to determine
whether those measures were specific, outcome-based, and related to the goals of the Recovery
Act. Our fieldwork took place from May through December 2012.

We conducted fieldwork at FNS Headquarters in Alexandria, Virginia. Additionally, we
interviewed officials from OMB and USDA’s Office of Budget and Program Analysis (OBPA)
in Washington, DC.

To accomplish our work, we performed the following procedures:

    ·    Reviewed laws, regulations, policies, and procedures governing SNAP and the Recovery
         Act to gain sufficient knowledge to complete the audit.
    ·    Interviewed FNS officials about the agency’s controls and mechanisms over performance
         measurement.
    ·    Discussed the development of performance measures with officials from FNS, OBPA,
         and OMB.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




6       AUDIT REPORT 27703-0002-22
Abbreviations
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
GPRA .......................... Government Performance and Results Act
NRC ............................ National Research Council
OBPA .......................... Office of Budget and Program Analysis
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
SNAP .......................... Supplemental Nutrition Assistance Program
USDA.......................... Department of Agriculture




                                                                   AUDIT REPORT 27703-0002-22   7
8   AUDIT REPORT 27703-0002-22
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27703-0002-22   9
United States
Department of    DATE:          March 22, 2013
Agriculture
                 AUDIT
Food and
Nutrition        NUMBER:        27703-0002-22
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712                        Office of the Inspector General
Alexandria, VA
22302-1500       FROM:          Audrey Rowe /S/
                                Administrator
                                Food and Nutrition Service

                 SUBJECT:      Recovery Act Performance Measures for the Supplemental Nutrition
                               Assistance Program

                 This letter responds to the official draft report for audit report number 27703-0002-22,
                 Recovery Act Performance Measures for the Supplemental Nutrition Assistance
                 Program. Specifically, the Food and Nutrition Service (FNS) is responding to the
                 report’s recommendation.

                 OIG Recommendation 1:

                 Develop, within USDA’s Strategic Plan, outcome based measures reflecting the
                 performance of SNAP.

                 Food and Nutrition Service Response:

                 USDA tracks the participation rate among people eligible for SNAP benefits, as well as
                 the national prevalence of hunger and food insecurity, as two key performance
                 measures. The former measure tracks the program’s effectiveness in reaching its target
                 population, while the latter measure is a society-wide outcome to which SNAP
                 participation contributes (see, for example, Nord and Prell, “Food Security Improved
                 Following the 2009 ARRA Increase in SNAP Benefits,” ERR-116, April 2011 --
                 http://www.ers.usda.gov/publications/err-economic-research-report/err116.aspx).

                 However, FNS has not defined outcome measures specific to SNAP because of the
                 complexity of measuring program impacts on participants. Since households at greater
                 risk of hunger are more likely to seek assistance, assessment of program effectiveness
                 requires more complex analytical methods to account for differences between
                 participants and nonparticipants.

                 It may also be worth noting that the measure of benefit dollars issued, combined with
                 analytical work on the stimulus effect of increased SNAP benefits (see Hanson, “The
                                                                                 P age |2




Food Assistance National Input-Output Multiplier (FANIOM) Model and Stimulus
Effects of SNAP, ERR-10, October 2010 – http://www.ers.usda.gov/publications/err-
economic-research-report/err103.aspx), was a particularly useful means of describing the
estimated stimulus impact of the Recovery Act benefit increase – that impact being the
unifying purpose of the Act.

USDA shares OIG’s interest in outcome-based performance measurement and would be
pleased to consider any specific recommendations for measurement approaches that
would be more specific to SNAP. In lieu of such recommendations, however, we would
expect to continue to use the alternative analytical approaches available to us to assess
SNAP’s effectiveness.




                             AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Administrator, Food and Nutrition Service
 Attn: Agency Liaison Officer

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
 Attn: Director, Planning and Accountability Division
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
